         THE COLORADO DISTRICT OFFICE’S

            SERVICING OF 8(A) BUSINESS 

             DEVELOPMENT PROGRAM

                  PARTICIPANTS




                           Report Number: 10-15

                      Date Issued: September 30, 2010





                             Prepared by the

                       Office of Inspector General

                   U.S. Small Business Administration



This October 19, 2010 revised version of the Report is the same as the one
publicly released on October 5, 2010 except that we have included information
that was unintentionally omitted from the Management Comments section.
          u.s. Small Business Administration
          Office of Insnector General                          Memorandum
    To: 	 Jess Knox                                                                   Date:       September 30, 2010
          Associate Administrator
          Office of Field Operations

         Greg Lopez 

         District Director 

         Colorado District Office 

         lsi Original Signed 

 From: 	 Debra S. Ritt 

         Assistant Inspector General for Auditing 


Subject: 	 The Colorado District Office's Servicing of 8(a) Business Development Program
           Participants, Report Number 10-15

         This report presents the results of our review of the Colorado District Office's
         servicing of 8(a) Business Development program participants. We conducted the
         review in response to a complaint the Office of Inspector General received on July
         13,2009, alleging that actions taken by the Colorado District Office hurt small
         businesses and wasted government resources. The complaint, which identified
         potential violations of 8(a) servicing rules between March 2007 and June 2009
         involving 12 companies,l alleged that the Colorado District Office was not:

                  • 	 Taking steps to graduate and terminate 8(a) program participants when
                      their Business Development Specialists (BDS) determined that they
                      were no longer qualified to be in the program;

                  • 	 Applying servicing procedures consistently, in a timely manner, and
                      ensuring that past personal histories with the participant's owners did
                      not influence servicing decisions;



         1 Theoriginal complaint alleged potentia18(a) violations involving 14 companies. However, after discussions with the
          complainant, it was agreed that only issues associated with 12 of the companies involved potential violations of 8(a)
          business development rules and regulations . Therefore, our review focused on the 12 companies . We also did not
          review personnel and other issues raised in the complaint that were not related to potential violations of 8(a) servicing
          rules .
                                                                                      2


       •   Ensuring that BDSs were knowledgeable of 8(a) program requirements;

       •   Communicating with 8(a) participants in a professional manner; and

       •   Properly collecting and reporting 8(a) contract data.

To determine whether the Colorado District Office was appropriately graduating
and terminating 8(a) firms, we reviewed actions taken by the district office relative
to two firms identified in the complaint that allegedly should have been removed
from the program based on criteria outlined in Agency regulations and Standard
Operating Procedure (SOP) 80 05 3A, 8(a) Business Development. We also
judgmentally selected four additional firms after discussions with the
complainants and our Investigations Divisions and a review of SBA' s 8(a) data.
To determine actions relative to these firms, we visited the Small Business
Administration's (SBA) Colorado District Office where we reviewed the 8(a) files
of the six companies and interviewed the Business Development Division staff
and District Director.

To determine whether the district office was applying servicing procedures
consistently, we reviewed the 8(a) files of eight firms identified as having
servicing issues. We also solicited feedback from 205 participant firms serviced
by the Colorado District Office between 2007 and 2009, including those identified
in the complaint, to obtain their opinion about the quality and timeliness of service
provided by the district office. We obtained feedback from 39 firms, which
equated to a 19 percent response rate. Because of the low response rate, the
results could not be projected to the universe of 8(a) participants serviced by the
Colorado District Office. Each of the 39 firms was asked uniform questions
regarding the district office's assistance in developing their business and
identifying procurement opportunities, and whether the participant would
recommend the 8(a) program to others in their community. Participant firms were
also asked to rate the service they received on a scale from 1 to 5 (1 being poor
and 5 being excellent). Because participants wanted to remain anonymous, we did
not validate their statements with district officials. We also reviewed the 8(a) and
mentor protege agreement files that were maintained by the district office for the
three companies identified in the complaint as having approved agreements.
Further, we interviewed officials from SBA's Office of Business Development,
Colorado District Office, and reviewed SBA Office of Hearing and Appeals case
law related to similar situations outlined in the complaint.

To determine whether BDSs were properly trained, we reviewed employee
training documentation at the district office. The 39 participant firms we
contacted were also asked their opinion about the district office's professionalism
and their BDS's knowledge of the 8(a) program. Further, we reviewed office
                                                                                     3


staffing levels and determined the length of time that BDSs had served in their
positions, and obtained feedback from 6 BDSs who had less than 2 years of
experience with the 8(a) program regarding the level of training they were
provided on program requirements.

While one of the complaints concerned whether the district office was properly
collecting and reporting 8(a) procurement data, we did not address this issue as we
determined that district offices are not required to report 8(a) data to headquarters.
Instead, SBA relies on procurement data from the Federal Procurement Data
System. We also did not determine validity of personnel and other issues
identified in the complaint because they were not related to potential violations of
the 8(a) servicing rules. We conducted our review between September 2009 and
August 2010 in accordance with Government Auditing Standards for attestation
engagements prescribed by the Comptroller General of the United States.

BACKGROUND

The 8(a) program is a business development program authorized by the Small
Business Act to help small disadvantaged businesses compete in Federal and
private procurement arenas. Firms participating in the program may receive
several types of assistance, including: sole source and competitive 8(a) contract
support; financial assistance; the transfer of technology or surplus government­
owned property; training and technical assistance; and assistance in forming joint
ventures and teaming arrangements with other business concerns for the purpose
of obtaining contracting opportunities.

The 8(a) program is delivered collaboratively between two offices within SBA.
The Office of Business Development, located in Washington, D.C., issues
program policy; processes applications for program participation; renders
decisions on program eligibility, changes of ownership, and mentor-protege
agreements; and releases participants from the program. The Office of Field
Operations, through its district offices, services 8(a) participants to help them
develop their businesses to the fullest extent possible to attain competitive
viability. BDSs at each district office are responsible for providing ongoing
management and technical assistance, identifying contract opportunities and
accepting requirements, conducting annual reviews of participant
accomplishments, determining whether participants are in compliance with
program requirements, reviewing management and teaming agreements, rendering
final determinations for joint ventures, and conducting site visits.

During the period of time discussed in the complaint the district office was
responsible for servicing approximately 205 8(a) participants. As of July 2010,
167 participants were assigned to the district office.
                                                                                    4


RESUL TS IN BRIEF

While many of the specific examples in the complaint were not substantiated by
this audit, the Colorado District Office did not function as well as it should to
provide consistent and worthwhile assistance to some of the companies in its 8(a)
portfolio. Specifically, it did not apply servicing procedures consistently and
timely for three of the eight firms reviewed. One firm should have been
recommended for termination for non-compliance with the program's annual
reporting requirements. Instead, the Colorado District Office accepted over $6.5
million dollars in 8(a) procurements since May 2009 on the company's behalf.
Another firm waited 10 months to obtain SBA approval of its mentor protege
agreement. A third firm was allowed to receive a sole-source contract when it was
ineligible to do so. Additionally, 23 of the 205 firms expressed general
dissatisfaction with the district office because BDSs were not assigned or
accessible, requests for assistance were not met timely or at all, and the quality of
assistance was poor. Participants also complained that district officials would not
return their phone calls or meet with them despite persistent requests, and that
from August to October 2009 their access to the district office was restricted to
only 2 days a week and by appointment only. During our visit to the office in
January 2010, we noted that access to district office officials continued to be
restricted.

These servicing issues were due to staffing shortages, the Agency placing a higher
priority on mandatory annual reviews than on servicing participants, and a lack of
training. In early 2008, the district office was operating with only two BDSs.
Although six additional employees were added in 2008 to better manage the 8(a)
program, according to the District Director, they were used primarily to complete
annual reviews.

A summary of the allegations outlined in the complaint and our determination of
their validity are outlined in Appendix I. A summary of 8(a) participant responses
to our questions about the service provided by the district office is provided in
Appendix II.

SBA has recently taken several steps to expand district office goaling
requirements for servicing 8(a) participants and has created a centralized Customer
Relationship Management (CRM) system to track and facilitate interactions
between SBA and its clients. SBA plans to mandate its use in November 2010.
Performance goals linked to district office handling of customer requests will also
be established.

To address servicing issues noted in our review, we recommended that the
Colorado District Office take steps to recommend for termination the firm
                                                                                       5


identified as no longer being eligible for the 8(a) program, minimize or end
restrictions on participant access to the district office, and ensure that all 8(a) firms
are assigned a BDS. We also recommended that the Associate Administrator for
Field Operations immediately require the Colorado District Office to use CRM to
track customer requests and monitor CRM status reports to ensure that requests are
addressed timely. Finally, we recommended that the Associate Administrator
determine the adequacy of training provided BDSs, take steps to address training
shortfalls, annually administer a nationwide customer satisfaction survey and tie
the survey results to District Director performance ratings, and determine whether
district offices are appropriately staffed to provide for adequate servicing of 8(a)
firms.

Management commented that it views the report as an improvement opportunity,
but noted that significant improvements have been made in the staffing,
management, and control of the Colorado District Office since the review was
completed. Therefore, management non-concurred with one recommendation,
concurred with two others, partially concurred with one recommendation, and
neither concurred nor non-concurred with four recommendations. Where
management either non-concurred or did not express concurrence or non­
concurrence, actions were generally underway or improvements had already been
made to address the deficiencies noted in the audit. Therefore, we consider
management's comments to be fully responsive to all, but three, of the
recommendations.

RESULTS

The District Office Generally Graduated or Terminated Ineligible Sea) Firms

Of the six firms reviewed, we determined that three were candidates for
graduation or termination and the other three were eligible to continue 8(a)
participation. The Colorado District Office generally took appropriate action in
reviewing five of these six firms. One firm should have been recommended for
termination for non-compliance with the program's financial reporting
requirements, but the district office has allowed it to participate without adequate
justification.

To remain eligible, participant firms must continue to be small and
unconditionally owned and controlled during their 9-year tenure in the 8(a)
program by one or more socially and economically disadvantaged individuals,
who are of good character and citizens of the United States. Applicants must also
annually submit data showing the financial condition of their firms and the
personal net worth of the disadvantaged owners. Specifically, 13 CFR 124.602
requires firms with December 31 st end-of-year reporting dates and gross annual
                                                                                        6


receipts of $1 million to $5 million to provide reviewed financial statements by
March 30 th . Firms with more than $5 million in gross annual receipts must submit
audited financial statements by April 30 th . Further, according to l3 CFR
124.303(7), a pattern of failure to provide these statements may result in the firm's
termination from the program. However, the participant may request a waiver to
this requirement for good cause, including where it has experienced severe
financial difficulties, which would make the cost of audited financial statements a
particular burden or where it has had an unexpected sales increase at the end of the
firm's fiscal year that creates an unforeseen requirement for audited financial
statements.

The Colorado District Office took appropriate action on five of the six firms. For
example, it took appropriate actions on the two firms named in the complaint,
recommending one for early graduation 2 months early because the president of
the company was making excessive withdrawals, and allowing the other to remain
in the program as there were no identified issues with the company. It also took
appropriate actions on three of the four judgmentally selected firms. For example,
it recommended one of the firms for termination for not submitting its business
plan update, personal financial statements, corporate and individual tax return, and
certifications relating to its program eligibility. Headquarters agreed with the
district office's recommendation and informed the firm it would be terminated
unless it provided the required documentation. The district office also properly
determined that the remaining two firms continued to be eligible for the 8(a)
program.

The Colorado District Office did not recommend for termination one of the firms
we judgmentally sampled, which was noncompliant with SBA's annual reporting
requirements. The firm did not provide "reviewed" 2007 financial statements by
the March 30,2008 deadline or "audited" 2008 financial statements by the April
30, 2009 deadline. Audited financial statements contain vital information about
business relationships and financial transactions that could affect the participant's
continued eligibility for the 8(a) program and contract awards. Despite the firm's
non-compliance with the program requirements for 2 consecutive years and
repeated warnings from the BDS that it would be terminated for failure to adhere
to the 8(a) reporting requirements, on September 24,2009, the Colorado District
Office found the firm to be in compliance and retained the firm in the program.

The BDS stated that instead of recommending termination of the non-compliant
firm from the 8(a) program, she had stopped accepting 8(a) contracts on the
company's behalf until it complied with program reporting requirements. For
example, in May 2009, the firm was offered two contracts, but the BDS did not
accept them due to the firm's continued non-compliance. The firm then requested
a waiver from the financial statement reporting requirements, which was denied by
                                                                                      7


the District Director. Subsequently, the firm's president and accountant negotiated
an agreement with the lead BDS and District Director where the firm would
provide its 2007 and 200S financial statements within 3 weeks of the district
office's acceptance of $735,000 in procurements on its behalf. Both the District
Director and lead BDS believed that this was fair because SBA was in the business
of helping small businesses.

On June 1,2009, the District Director accepted the $735,000 in procurements on
the firm's behalf, although the firm did not provide its 2007 financial statements
until December 2009-nearly 7 months after the date promised-and had not
provided its 200S audited financial statements. Between June 2009 and
May 2010, the district office accepted three additional procurements totaling over
$5.S million even though the firm had still not submitted its 200S audited financial
statements. In total, over $6.5 million in procurements were accepted on the
firm's behalf. These acceptances were made because the firm was technically "in
good standing" as no suspension or termination actions had been taken. However,
due to the firm's continued refusal to provide the required financial statements in a
timely manner, the firm was in violation of its participation agreement, and was a
candidate for termination from the Sea) program according to SBA regulations.

The Colorado District Office Did Not Always Provide Accurate or Timely
Servicing of its Sea) Firms

The complaint alleged that eight firms were not being consistently and timely
serviced by the district office, and that a personal history with one participant's
owner was allowed to influence servicing decisions. Our review substantiated
servicing issues with three of the eight firms. As previously discussed, we found
that one firm was allowed to remain in the program, even though it continuously
refused to submit the required financial statements, and that the district office
inappropriately accepted over $6.5 million in contracts on behalf of the firm. In
contrast, we noted between September 2009 and January 2010, the district office
recommended termination of five firms that did not comply with the financial
statement reporting requirements.

The second firm was dissatisfied with the service it received because it took
10 months to have its mentor protege agreement approved, which resulted in the
firm missing the solicitation deadline for a $90 million procurement. The BDS
told us that because she had recently transferred into the BDS position, she needed
the Lead BDS, who was the only one with mentor protege experience, to review
the agreement. Because the Lead BDS was on extended leave, the mentor protege
agreement did not get reviewed until almost 3 months after it was submitted.
When the lead BDS ultimately reviewed it, it was determined that additional
information was needed, and the agreement was returned to the participant. After
                                                                                       8


the applicant resubmitted its mentor protege application, the district office held the
application for 2 months for the lead BDS's review. Ultimately the application
was forwarded to headquarters without the lead BDS' s review about 3 weeks after
the procurement's solicitation deadline. The application was subsequently
rejected by headquarters and returned to the district office because it did not
comply with the templates located on SBA's Business Development Share Portal.
Two months later the agreement was re-submitted to headquarters for approval.
The agreement was ultimately approved 5 months after the procurement
solicitation deadline.

For the third firm, we determined that in February 2008, the Colorado District
Office improperly accepted a $3,488,000 procurement on behalf of a business that
did not meet its applicable competitive business mix target for the completed
program year. In its July 9,2007 annual review letter, the Colorado District
Office found that the firm was ineligible for sole source 8(a) contracts in the
current program year. However, on February 1, 2008 the district office accepted a
contract on behalf of the firm even though the company had not brought itself into
compliance.

The complaint also alleged that a mentor protege agreement for a fourth firm was
disapproved because the District Director stated he would never approve a mentor
protege agreement that would benefit the mentor because the mentor did not
financially support his political campaign when he had run for mayor of a city.
The District Director denied making the comment, while the individual he
allegedly made the comment to confirmed it, but told us there were no other
witnesses. Regardless of whether the comment was made, we determined that the
disapproval was justified on the basis that the arrangement did not benefit the
protege, indicating that the District Director's actions were appropriate.

In addition to examining the specific complaints involving the 8 firms, we asked
205 participants to give us their opinions on the quality of the service provided by
the Colorado District Office. We obtained feedback from 39 firms. Participant
responses to our questions about the quality of service provided the district office
is summarized in Appendix II. In summary, 24 of the 39 firms stated they were
dissatisfied with the servicing provided by the Colorado District Office because
BDSs were not assigned or accessible, requests for assistance were not met timely
or at all, the quality of assistance was poor, and/or communication with the district
office was limited to general e-mail distributions forwarding information.
Specifically:

   • 	 17 firms responded that district officials would not return their phone calls
       or meet with them despite urgent and persistent requests, even those made
       to the District Director. Nine of the 17 firms stated that because they were
                                                                                 9


   denied access to their BDSs, they had to seek assistance from SBA
   headquarters, consultants, lawyers, or their congressmen. Additionally, one
   of the nine firms named SBA as a defendant in a lawsuit, alleging that the
   Colorado District Office failed to properly service it as a participant in the
   8(a) program. That case has since been dismissed. The firms also
   complained that the District Director limited their access to the Colorado
   District Office to 2 days a week and by appointment only with assigned
   BDSs. For example, one firm told us it was not permitted to submit a joint
   venture application in person because according to the Lead BDS, the firm
   did not have an appointment, and therefore, did not have permission to be
   in the district office.

• 	 10 firms reported that the district office was untimely in responding to their
    requests for service. Four firms stated they could not get timely approval of
    their joint venture or mentor protege agreements, and reported that the
    delays resulted in harm to their businesses, including the loss of
    procurement opportunities and revenue. For example, as discussed
    previously, one firm reported it missed a $90 million contracting
    opportunity because the BDS did not complete her review of the mentor
    protege agreement until 5 months past the solicitation deadline, even
    though the firm had submitted the agreement 5 months prior to the
    deadline. The other firm told us it is continuing to miss contracting
    opportunities because its BDS has not approved the mentor protege
    agreement, which was submitted to the district office in November 2008.
    In three of the cases, the BDS took between 6 months to 18 months to
    process the requests, and in the fourth case the BDS never responded.
    According to the Office of Business Development, it normally takes 3 to 4
    months to process a mentor protege agreement request and obtain
    headquarters approval.

• 	 9 firms stated that communications with the district office were limited to
    e-mails that forwarded general information about the 8(a) program. Four of
    the nine firms stated that they also had not received site visits since joining
    the 8(a) program.

• 	 10 firms stated that the quality of assistance provided by district office
    representatives was poor. For example, one firm indicated that when it
    asked how its company could benefit from the 8(a) program, the district
    office representative replied, "I don't know what to tell you." Another firm
    reported that it requested assistance many times and the district office
    refused to help. It also requested, but never received, a list of the services
    that the district office provided.
                                                                                                                          10



       • 	 6 firms stated that they had not been assigned BDSs for a period of time
           and had been told by the District Director that BDS assignments would not
           be made because resources were not available. Four of the firms waited 7
           months, while one firm waited 9 months and one waited 1 year to be
           assigned a BDS. According to one firm, a BDS was ultimately assigned to
           every participant as a result of a meeting that the firm had with
           representatives from SBA's Office ofField Operations. Firms not assigned
           BDSs told us that when the District Director further limited access to the
           district office in August 2009, it was impossible to obtain any assistance.

The servicing issues reported above were due to a variety of factors. First, in 2008
the office was significantly understaffed and was operating with only two BDSs to
service over 200 8(a) firms. The lead BDS had over 10 years of experience in the
8(a) program and the other had less than 1 year of experience. To improve the
overall management of the 8(a) program, during 2008 the District Director
augmented his existing business development staff with four employees that were
working in the Marketing Outreach Division of the district office and two new
hires. However, none of the six individuals had prior experience with the 8(a)
program. In addition, the lead BDS, who was the most knowledgeable about the
8(a) program, was out of the office for extended periods of time, leaving the office
to operate mostly with inexperienced staff.

According to the District Director, the increased staffing was intended to ensure
that all required annual reviews were completed to meet the district office's annual
performance goal. At the time, the district office's performance metrics focused
on meeting the annual review requirements and did not measure the district
office's performance in other aspects of servicing. This was in response to an
Agency initiative, introduced by the former Administrator, making compliance
with statutory requirements, such as annual reviews, a priority and ensuring that
programs operated effectively and efficiently. As a result, in FY 2009 the
Business Development Division had one goal related to the 8(a) program, namely
to complete all of its 8(a) annual reviews in accordance with Federallaw and
statutes. 2 There were no other goals that addressed the other elements of 8(a)
servIcmg.

To ensure that BDSs could focus on the annual reviews, in August 2009 the
District Director restricted participant firms' access to the Colorado District Office
to 2 days a week and by appointment only (see Appendix III). According to an
August 12,2009 letter to Colorado district 8(a) participants, the restriction was in

2   Public Law 100-656, §209, 102 Stat. 3853 , 3863 (1988), codified at 15 U.S.C. §637 (a)(6)(B), requires SBA to
    complete annual reviews of all 8(a) program participants. This requirement, along with other provisions in the law,
    were intended to prevent ineligible firms from participating in the program.
                                                                                     11


place between August 17,2009 and October 5, 2009. While this occurred in 2009,
during our site visit to the Colorado District Office in January 2010, we noted that
access to the district office continued to be restricted. For example, during our
visit one owner of an 8(a) firm was denied access to the district office. Although
the BDS responsible for reviewing the firm's mentor protege agreement was in the
office that day, she refused to see him. The participant told us that he visited the
office because district officials had not been responsive to his repeated inquiries
about his mentor protege application. We also heard the District Director suggest
that egg timers be placed on each BDS' desk to limit counseling sessions with 8(a)
firms to 5 minutes.

Since our audit work was initiated, SBA has taken several steps to improve the
servicing of 8(a) firms nationwide. For example, the Office ofField Operations
revised district office goaling requirements for FY 2010 to include metrics that are
intended to: (1) improve small business participation in Federal government
contracting; (2) support entrepreneurship development through training,
counseling and technical assistance; and (3) strengthen stewardship and
accountability over taxpayer dollars through prudent financial portfolio
management and oversight. Additionally, in January 2010, SBA created the
Customer Relationship Management (CRM) system to help track and facilitate
interactions between SBA and its clients. CRM assists SBA store all client
communications by type, as well as, manage active client requests by rating their
importance, and setting up deadlines and reminders. District staff can also query
CRM and run management reports to determine the types of requested services,
the frequency of requests, and their status. While use of the system is currently
voluntary, SBA plans to require that the district offices record and monitor all
customer requests, starting in November 2010.

According to the Associate Administrator for Field Operations, CRM's tracking
capabilities will generate data that will allow him to measure other aspects of
district performance, thus establishing greater accountability in the district offices.
He hopes to establish additional customer service performance goals for the
district offices by FY 2011 that will be measured using data from CRM. The
Associate Administrator also stated that the implementation of new servicing goals
and CRM are only the beginning of his efforts to create accountability within the
district offices. Currently, teams of Regional Administrators, District Directors,
and BDSs are working together to develop measurable performance standards and
uniform training curriculum for all district office employees.

While we believe that these efforts will significantly increase accountability and
oversight of the district offices, neither the performance standards nor CRM will
provide a basis for measuring the quality of service provided. Determining the
quality of service is important because servicing issues can significantly impact
                                                                                   12


the success of 8(a) companies. For this reason, we believe that the Associate
Administrator of Field Operations should also administer a customer satisfaction
survey that would solicit feedback from all 8(a) firms. The survey should be
performed annually by an independent third party, such as the Office of Personnel
Management, and the results should be tied to district directors' annual
performance ratings. We also believe that the Colorado District Office should
immediately be required to use CRM to manage communications with its 8(a)
firms and that the Office of Field Operations should monitor CRM status reports
for that office to ensure that requests for assistance are addressed timely. Finally,
because staffing constraints impacted the level of service provided by the
Colorado District Office, we believe that staffing levels of all the district offices
should be reviewed to ensure that BDSs can devote the time they need to service
their 8(a) participants.

Business Development Specialists Were Inexperienced with the Sea) Program
and Inadequately Trained

According to the complaint, the BDSs made unintentional errors and did not
properly apply the 8(a) rules and regulations when servicing firms because
Colorado district management was "grossly negligent" in training its Business
Development Division staff. While we did not find widespread errors in the 8(a)
files reviewed for the 12 firms named in the complaint, as previously discussed,
we determined that in February 2008, the Colorado District Office improperly
accepted a $3,488,000 procurement on behalf of one of the firms. The BDS
advised us that she did not receive adequate training in contract acceptance and
therefore did not ensure the business met the applicable competitive business mix
target for the completed program year.

Additionally, 19 of the 39 participant firms who provided us feedback questioned
the knowledge of their BDSs. Three firms also stated that their BDSs often
misinterpreted concepts and definitions, and frequently contradicted information
they previously provided, which caused delays and rework on the part of
participant firms. Due to lost confidence in their BDSs, 9 firms told us they
sought assistance including technical guidance and congressional and legal
assistance.

Problems noted with BDSs were largely attributable to most of the BDSs being
new to the 8(a) area and not being adequately trained. During 2008 and 2009, six
of the BDSs had less than 1 year of experience, one BDS had only 2 years, and the
other had been in her position 13 years. The training records as of January I,
2010, showed that formal training of 7 BDSs with 2 years or less of experience
was a 2-day course that covered a wide range of 8(a) topics, including annual
reviews, mentor protege and joint venture agreements, and business plans. The
                                                                                     13


remaining BDS had significant experience and had taken several classes. When
asked about the level of training provided, most of the 6 BDSs with less than 2
years of 8(a) experience stated that they were not given sufficient training to do
their jobs effectively and that most of training was acquired on-the-job.

Officials from the Office of Business Development told us that they have no
control over the amount of training provided BDSs because BDSs report to the
Office of Field Operations. Therefore, the district offices are responsible for
training and monitoring the performance of their BDSs. However, upon request,
the Office of Business Development can provide 8(a) training to new BDSs.
Officials from the Office of Business Development told us that had it been
informed of the situation in Colorado, it would have provided the support needed.
As mentioned previously, teams of Regional Administrators, District Directors,
and BDSs are currently working together to develop uniform training curriculum
for all district office employees, which should ensure that BDSs are properly
trained in the future. However, we believe that the Office of Field Operations
should review the training provided BDSs in the Colorado District Office and take
steps to address any training shortfalls.

Some Participants Reported that District Officials Lacked Professionalism

The majority of the 39 firms contacted believed that district office officials
presented themselves in a professional manner. However, 9 firms told us that the
district office lacked professionalism in its communications. Five of these firms
told us that they had been scolded, or threatened when meeting with the Lead BDS
from the Colorado District Office. In these instances participants reported that
they were:

   • 	 Threatened with debarment when the owner of the firm said it would seek
       legal assistance because the Lead BDS was questioning whether the firm
       performed the majority of the work on its contract.

   • 	 Accused of being a front for a large business and bribing the contracting
       officer in order to get the contract as a mentor protege.

   • 	 Scolded for not working hard enough to market itself in response to the
       firm's request for assistance

   • 	 Treated rudely and with hostility by the Lead BDS and District Director.
       For example, one participant claimed it was treated in this manner when
       being persistent in seeking assistance on a joint venture application.
       Because the individual did not have an appointment, he was turned away
       from the district office. Another participant advised us it was treated with
                                                                                      14


       hostility after contacting his congressman to intervene, and accused of
       using political means to circumvent 8(a) requirements.

Additionally, one firm stated that another BDS contacted its client, a contracting
officer with the Federal government, to inform her that the firm was no longer
financially stable, and therefore, could not contract with the government. The firm
became aware of this communication after the contracting officer contacted it to
express concern. Ultimately, SBA, the firm, and the contracting agency were able
to resolve the issue, but not before the firm's financial reputation was questioned.

RECOMMENDATIONS

We recommend that the District Director, Colorado District Office:

   1. 	 Immediately recommend for termination the firm identified in the report
        that continually refused to comply with the 8(a) financial reporting
        requirements in accordance with sections (2) and (7) of 13 CFR 124.303.

   2. 	 Minimize or eliminate restrictions on participants' access to the district
        office.

   3. 	 Ensure that all 8(a) firms are assigned to a Business Development 

        Specialist. 


We recommend that the Associate Administrator for Field Operations:

   4. 	 Immediately require that the Colorado District Office use CRM to track
        requests from 8(a) firms and monitor CRM status reports for that office to
        ensure that requests are addressed timely.

   5. 	 Determine the adequacy of training provided to BDSs in the Colorado
        District Office and work with the Office of Business Development to
        address any training shortfalls.

   6. 	 Require the District Director to submit a plan outlining steps that will be
        taken to address the servicing issues addressed in this report, including
        recommending one firm for termination, and ensuring that all 8( a) firms
        have access to the district office during regular business hours.

   7. 	 Annually administer a nationwide customer satisfaction survey for all 8(a)
        firms, using an independent third party and tie the results to all district
        directors' annual performance rating.
                                                                                     15




   8. Review staffing levels of all the district offices to ensure that BDSs can
      devote the time needed to adequately service their 8(a) participants.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On August 18,2010, we provided a draft of the report to SBA's Office ofField
Operations and Colorado District Office for comment. On September 23,2010,
the Deputy Associate Administrator for Field Operations provided written
comments on the behalf of the Office of Field Operations and the Colorado
District Office, which are contained in their entirety in Appendix IV.

While management concurred with some of our conclusions and non-concurred
with others, it stated that it views the report as an improvement opportunity and
intends to embrace the legitimate outcomes for purposes of continued
improvement. However, management emphasized that the alleged violations
addressed in the report occurred, in part, during the transition of new district office
leadership and before increases were made to staffing levels. Since that time,
significant improvements have been made in the staffing, management, and
control of the district office. Further, the current district office staff has been
trained, which along with strategic planning and increased communications, have
enhanced their performance.

Management also believes that concerns related to restricting participant access to
the district office, which were caused by miscommunications and
misunderstanding, have been resolved. However, management is willing to
conduct an analysis to identify further improvements needed.

Management specifically requested that the OIG reconsider its characterization of
the district office's acceptance of over $6.5 million in procurements on behalf of a
firm as "inappropriate." While management agrees that it may have been
appropriate to recommend terminating the company from the 8(a) program, it was
not done. Because the firm had not been suspended or terminated, management
believes it was in good standing in the 8(a) program, and therefore, acceptance of
the additional procurements was not necessarily inappropriate. We have revised
the report language accordingly to address management's concern.

Finally, management non-concurred with recommendation 1, concurred with
recommendations 2 and 3, partially concurred with recommendation 6, and neither
concurred nor non-concurred with recommendations 4,5, 7, and 8. Because some
actions relating to the latter recommendations were either underway or
                                                                                 16


implemented, we consider management's comments to be fully responsive to all,
but three, of the recommendations. A summary of management's comments and
our response follows.

Recommendation 1

Management Comments

Management did not agree with the recommendation because the firm in question
has submitted the required documentation and audited financials for 2007 and
2008 and is up to date on its reporting requirements. As a result, the potential
grounds for termination addressed in the report no longer exist. However, the
district office will continue to monitor the firms in the 8(a) portfolio for
compliance and take appropriate action (recommendation for termination and
suspension) as required.

GIG Response

While the Colorado District Office did not agree with the recommendation, we
find their response and alternative solution to continue to monitor the firm's
compliance with 8(a) program requirements responsive to our recommendation.
As a result, we believe final action has been taken on this recommendation and
consider it to be closed.

Recommendation 2

Management Comments

Management agreed with the recommendation and stated that there were currently
no restrictions on participants' access to the district office.

GIG Response

We believe that management's comments were responsive to the recommendation,
and consider the recommendation to be closed.

Recommendation 3

Management Comments

Management agreed with the recommendation and stated that all current
participants in the 8(a) BD program have been assigned to a BDS.
                                                                                   17


GIG Response

We believe that management's comments were responsive to the recommendation,
and consider the recommendation to be closed.

Recommendation 4

Management Comments

Management stated that the CRM system is not fully operational, but that it
intends to use CRM as a resource tool once the system is in place. In the
meantime, the Office of Field Operations will ensure that current procedures for
customer service are followed by the BDSs in all SBA district offices.

GIG Response

We agree that the district office cannot immediately track servicing requests in
CRM if it is not yet fully operational, and consider management's plans to ensure
that current procedures for customer service are followed to be responsive to the
recommendation.

Recommendation 5

Management Comments

Management stated that continuous training sessions for BDSs have been
conducted by subject matter experts within the Office of Business Development.
Moreover, in July 2010, the Office ofField Operations hosted a lead BDS training
session in which teams of subject matter experts were brought together to develop
and implement training modules for new hires and for continued learning
education. The Office of Field Operations is committed to rolling out the training
program in FY 2011.

GIG Response

We do not consider management's comments to be fully responsive to the
recommendation. While we applaud the actions taken by the Office of Field
Operations in expanding the current BDS training program, we believe an
assessment of the training provided to each BDS within the Colorado District
Office will allow management to adjust its supervision of BDS activities where
training has been lacking until the new training curriculum is available.
                                                                                   18


Recommendation 6

Management Comments

Management referred to its response to recommendations 1 and 2, where it
disagreed that one firm should be recommended for termination as it was currently
in compliance, and agreed that participant access to the district office should not
be restricted.

GIG Response

We believe that management's comments are responsive to our recommendation
that the District Director submit a plan for addressing the termination and access
issues. As management previously responded, the formerly non-compliant firm is
now in compliance, and therefore, should not be terminated. Further, the access
restrictions are no longer in place. Also, significant improvements have occurred
in the staffing and management of the Colorado District Office since our review
was completed. Therefore, we believe recommendation 6 should be closed.

Recommendation 7

Management Comments

Management stated that customer satisfaction surveys are considered by OMB to
be data collections and are, therefore, subject to the Paperwork Reduction Act. As
a result, the Office of Field Operations defers to the Office of the Administrator in
determining whether or not the Agency will develop a customer satisfaction
survey, whether it is administered through a third party, and how the district
directors are rated and what performance criteria is evaluated.

GIG Response

We do not consider management's comments to be fully responsive to the
recommendation. While permission should be obtained from the appropriate
parties prior to conducting a survey, we believe that the Office of Field Operations
should take the lead in developing and implementing the survey instead of
deferring responsibility to the Office of the Administrator.
                                                                                       19


Recommendation 8

Management Comments

Management stated that reviewing staffing levels of all the district offices to
ensure that BDSs can devote the time needed to adequately service their 8(a)
participants is ongoing.

GIG Response

We consider management's ongoing review of district office staffing levels to be
responsive the recommendation.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the SBA during this audit. If you
have any questions concerning this report, please call me at (202) 205_[FOIAeX2br
Riccardo R. Buglisi, Director, Business Development Programs Group at (202)
205- [FOIAex.2]

cc: Acting Director, Office of Business Development
                                                                                                   20 



 APPENDIX I. SUMMARY OF ALLEGATIONS AND OIG FINDINGS 


  Company                       Allegation              Graduating   Servicing   Training   Professionalism
Company A        Firm should have been graduated
                 due to excessive withdrawals by             U
                 firm's officers.
Company B        Firm did not meet 8(a) ownership
                                                             U
                 requirements .
Company C        The district office accepted
                 contracts , while the firm was non­                    S
                 compliant with 8(a) regulations.
Company D        Mentor protege agreement was
                 not processed timely due to lack                       S
                 of staff knowledge.
Company E        The district director stated that he
                 would not approve a mentor
                 protege agreement because the                          U
                 protege's owner did not support
                 him in his political campaign .
Company F        Reported as ineligible for 8(a)
                 sole source acceptances yet the
                                                                        U
                 district office continued to accept
                 procurements on its behalf.
Company G        Change of ownership request
                 was mishandled .                                      UDII

Company H        District office's refusal to approve
                 financial statement waiver was                         U
                 unjustified .
                 Lead BDS spoke to firm in a rude
                                                                                                 UDII
                 and demeaning manner.
Company I        District office inappropriately
                 denied contracts on the behalf of                      U
                 the company.
Company J        Reported as ineligible for 8(a)
                 sole source acceptances yet the
                                                                        S
                 district office continued to accept
                 procurements on its behalf.
Company K        Mentor protege agreements were
and              not approved by headquarters
Company L        because Lead BDS failed to                                         U
                 communicate new requirements
                 to staff.


 S = Substantiated
 U = Unsubstantiated
 UDII= Unable to Determine due to Insufficient Information
                                                                                                            21


APPENDIX II. SUMMARY OF 39 PARTICIPANT RESPONSES ABOUT
             SERVICING PROVIDED BY THE COLORADO DISTRICT
             OFFICE

                          Requests       Business          District            BDS         Believed the   Recommend
                          Performed     Development        Officials      Knowledgeable      District     8(a) Program
                           Timely        Specialist         Acted         about the 8(a)    Office is        to Your
                                         Receptive      Professionally       Program        Providing      Community
                                                                                           Assistance

 No                           9             13                9                19              26             12

 Yes                         17             17               22                 8               5             18

 Yes and No                   5             7                 5                 3               6                5

 Chose to not respond         8             2                 3                 9               2                4

Table 1. Firms responses by question (numeral value).


                           Requests      Business        District Officials      BDS       Believed the   Recommend
                           Performed    Development           Acted           Knowledge      District     8(a) Program
                            Timely       Specialist       Professionally      able about    Office is        to Your
                                         Receptive                             the 8(a)     Providing      Community
                                                                               Program     Assistance
 No                          23%            33%                23%               49%           67%            31%

 Yes                         44%            44%                56%               21%           13%            46%

 Yes and No                  13%            18%                13%                  8%         15%            13%

 Chose to not respond        21%            5%                    8%             23%           5%             10%
Table 2. Firms responses by question (percentages).
                                                                                                                                                            22


APPENDIX III. LETTER ISSUED TO PARTICIPANTS RESTRICTING
              ACCESS TO THE COLORADO DISTRICT OFFICE



                                                  n .s. SM      L BI1S1NB.SSAOldINISTRA11I0N
                                                               Ct>kmrtJ~ Dim'lei QfTJti!
                                                               721 1911!lSUmt, Sl2ilt 4:16,
                                                                0.:11= co .8lll2:'!)2.2;:i J7
                                              (Jm)~..1'tJijil · .f'M '(:IOO~ N~>649(I" 1l;lIJ (l!OOj8'71.u:J!J




                                   9\1 ':mess Development S~iIlU~s New HIIUJ1I (If A'Yililabilit)'
                                      EIftcl!ye~August ]1, 2fH-" Un" October g, %002




        As ),,011 Ill] tn\'Jw 'llie CJld of me Federal F-liscal Ye3r, .sr:p~l!ilbt! r 30. is (;asl approaeli:ina. N(iW i:s the time
        wbe:n the ~ume of conl!rudiaJgo££r,u:!l, MIlI!3I leView C1)IUpHiliIIllt lIIId mdLof-year repon requests Ii!!'C M!heir
        hism-~t looel        Most of you :are aware IRatOl,ir office is wrrenlly' ~dei'$ialkd and is m Iheprocess of
        rec;tUilillg 5Qm.c; additrollld DDS petsoonell. In addition, CMl.)!l'.!'D Terrell, l .eadl DUmte!il> D:vel(lpmfmt
        Specialist willi Ix: out 011 ex!ended m.edicallea\'e from iipJ)r"(l~malcly .August B -October.'l, '2009.




                                                   DDS Air@' Available '011 

                                          Tuesdays & Thursdays ON...¥!! !! 


                                           8:30 am - 3:30 pm
        Allh(lugh oor BDS sWT j~ IftQrG Ihm ham to :lIssi5t yoo andaM"'o'.(l[ any questions. yoo may bave, IIiIe. clJlllent
        wwtlood III be ,oompl~trd b~' Ih~ t,('qd 9f dlo!l ti~ ~ ill QW !~ priml,y ;g.t Ihi~ ume. II you h1l.ve an
        I!!~g.e~o:r .~ iirnmlediafe attention, 1I1~ re:wl'I OlIt to }lou ru:signed !QS at any lime. and. •            willi
        llSS1sl y.Qo\,i 1I1J a IIm«y ~~L


        I tini(lW dW ~1DI:i Qr yw hll.vc; !J.o¥n ablco 10 vj5it wUh your iSlligned DDS a.1Id gel a'n5\;\'en to YQUr queslions
        b)' simply stopplillg fialti\OOl'lCCd ill die (1ffKle wilil\oIit B sdwcdillcd appointmcllfl_ Due 10 lheaddled wodload
        placed on I1he em.ire 9Itaff of lDe CWOOIOO Distril!1O{fitCe duri~ lhis IittJe of year. we wiD not be alll~ (0 meet
        wilh you ~ a scbed!!l~ appo.itnunem.

        AI(lt1t wilb Ib¢ t!Jl1Ire s!Jdfor the Colmdo DiliArid .office, 1 ~I ro thank                    ytIp     in 1\dV'IUII;t'; :fur )'Q!II" patio::nce
        ad Il'O.dcnilandling: of Ihesc ~PCIVY dliaDY:S anci fot- respecling Ihe                    ~diitil;m:d      aetivily dtat !he 'Col.o.rado
        District Office nwst complete by September .30\2flJOO.

        It is QflIy willi lib a5~laIlce ofol;ll' 2.1):2. CoJwado 800 pu.nfo(jo complmieg, dlat                    w~   wiU be abte 10 complew
        '\he y'eat-endl i'Cqu~i\.ts. iii il timelyma'lifi¢r.




          /~


        G~g:~
        Oi moot Diirector
                                                                                            23
      APPENDIX IV. MANAGEMENT COMMENTS

                              U.S. SMA!..!. aUSINESS AOMINISTRA'rION
                                      WASHINGTON, O~C.    204t6




MEMORANDUM

DATE:             September 23,2010

TO:               Debra S. Ritt
                  Assistant Inspector General for Auditing
                  .office of Inspector General

FROM:             Jess Knox

THROUGH:          Eugene Cornelius     [FOIA
                                       [FO IA ex. 6]
SUBJECT:          Response to Draft AutMt Report on "The Colorado District Office's
                  Servicing of 8ea) BUSiness Development Program Participants"
                  Project No. 10003

The Office ofField Operations (OFO) and the Colorado District Office (DO) welcome the
opportunity to comment on the findings reported in the Draft Audit Report on "The Colorado
District Office's Servicing of 8(a) Business Development Program Participants" (project No.
10003).

OFO reviewed the findings and ~ecommendation of     ofProject
                                                      Project No. 10003 and concurs on some of
the conclusions and non-concurs on others. First, it. is important to emphasize that the period of
time covered by this report is bifurcated by a change in leadership in the DO. The draft report
contains the results of an OIG review of the DO based on a complaint received in July of2009
alleging violations by the office in the administration of the 8(a) Business Development (BD)
program made between March 2007 and June 2009. The leadership in the DO transitioned in
2008, when the agency hired District Director. Second, the Colorado District Office (DO)
services a portfolio of
                     ofover
                        over two hundred 8(a) companies and, while there were some concern
with staffing and resource levels in March 2007, since that time the leadership and staffing levels
have experience considerable and positive change.

Currently, the DO has added new staff. The current staff has received training and has been
provided with numerous learning opportunities. The change in leadership has made a big
difference in the management and control of the DO, and the BDS's skills have been enhanced
through training opportunities, strategic planning, and increased communications. Additionally,
the DO has engaged in process improvements and more improvements are planned.

Most notable is that the Office ofInspector General concluded many of the original complaints
be unsubstantiated.
                                                                                                   24
    APPENDIX IV. MANAGEMENT COMMENTS


OFO believes the concerns related to access restrictions have been resolved, and in large part had
been caused by miscommunication and misunderstandings. And while the tracking of actions
and communications via CRM is worthy and oUght to be pursued, OFO will conduct an analysis
to determine whether or not the process will have tbe most benefi.cial result and not raise other
issues or problems.

The Colorado District office views the report as an improvement opportunity and it intends to
embrace the legitimate outcomes of this report for purposes of
                                                            ofcontinued
                                                               continued improvement.

Please note that SBA recommends a clarification of the last paragrapb on page 6 which continues
on to page 7, or strilcing out of the fll'st full sentence on page 7, which states, "In total, over $6.5
million in procurements were accepted inappropriately on the firm's behalf." ,(,(emphasis
                                                                                      emphasis not in
original). If the firm had been suspended in cOrUunction with a termination action or if it had
been offered sole source opportunities, but the finn had failed to submit the financial statements,
then SBA had the authority to deny the award based on the suspension, pursuant to 13 CFR
§ 124.305; or ineligibility based on failure to submit financial statements pursuant to I3 CFR
§ 123.503(c)(I). It is not clear from the facts whether the contracts were competitive or sole
source and whether or not the firm was suspended. Based on the facts present in the report
regarding termination, it appears that the firm was not recommended for termination; so,
arguably, it was not suspended. If the awards were the result of competition and the firm was not
suspended then SBA acted appropriately with regard to the contract awards. SEA conceded that
there may have been a lost opportunity to recommend the frrm for telmination, but describing
SBA's actions as inappropriate is not consistent with the rules on ContTact eligibility and thus
should not be described as such.

OIG RECOMMENDATraNS

We recommend that the District Director, Colorado District Office:

    1. 	 Immediately recommend for termination
                                      tel1llination the finn
                                                        firm identified in the report that has 

         continued to refuse to comply with the Sea) financial reporting requirements in 

         accordance with sections (2) and (7) of 13 CFR 124.303. 


    2. 	 Minimize or eliminate restrictions on participants' access to the district office.

    3. 	 Ensure that all 8(a) firms are assigned to a Business Development Specialist.

We recommend that the Associate Administrator for Field Operations:

    4. 	 Inunediately require the Colorado District office use CRM to traclc requests from 8(a)
         firms and monitor CRM status repowers for the office to ensure that requests are
         addressed timely.

    5. 	 Determine the adequacy of training provided to BDSs in the Colorado District Office and
         work with the Office of Business Development to address any training shortfalls.



                                                   2
                                                                                             25
   APPENDIX IV. MANAGEMENT COMMENTS


  6. 	 Require the District Director to submit a plan oUtlining steps that will be taleen to address
       the servicing issues addressed in the report including the temlination of the fmn, and
       ensuring that all Sea) fimlS have access to the district office during regular business
       hours.

  7. 	 Annually administer nationwide customer satisfaction survey for all 8(a) finns, using an
       independent third party and tie the results to district directors' annual performance rating.

  8. 	 Review staffing levels of
                              ofall
                                 all the district offices to ensure that BDSs can devote the time
       needed to adequately service their Sea) participants.

SBA RESPONSE

  I. 	 Non-concur. The firm in question submitted the required docmnentation and audited
       financials for 2007 & 2008 and is up to date on the reporting requirements. The potential
       grounds for termination addressed in the report no longer exist. The DO will continue to
       monitor the fmns in the 8(a) portfolio for compliance and take appropriate action
       (recommendation for termination and suspension) as required.

  2. 	 Concur and addressed. There are no restrictions on participants' access to the district
       office.

  3. 	 Concur and addressed. All participants in the 8(a) BD program are assigned a Business
       Development Specialist.

  4. 	 OngOing. The CRM system is not [ully operational, but the OFO intends to use CRM as II
       resource tool once the system is in place. In the meantime, OFO will ensure that the
       current procedUres for customer service are followed by theBDSs in all SEA DOs.

  5. 	 Ongoing. OFO has conducted continuous training sessions for the BDSs through in
       person assistance and through quarterly Ready Talk sessions administered by subject
       matter experts through the Office of Business Development. In July 2010, the OFO
       hosted a lead BDS training in which teams of subject matter experts were brought
       together to develop and implement training modules for the use of new hires and
       continued learning education. The OFO is committed to rolling out the training program
       in fiscal year 2011.

  6. 	 Please see reSponse to items I and 2.

  7. 	 Customer satisfaction surveys are considered by OMB to be data collections and are
       therefore subject to the Paperwork Reduction Act. OFO defers to the Office of the
       Administrator in determining whether or not the Agency will develop a customer
       satisfaction survey, whether it is administered through a third party, and how the district
       directors are rated and what performance criteria is evaluated.

  8..
   ..Ongoing.
      Ongoing.


                                                 3
